J

86a
4>

FILED: September 28, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6229
(3:18-cv-00271 -J AG-RCY)

JIMMY RICHARD HUSBAND
Petitioner - Appellant
v.

J. RAY ORMOND
Respondent - Appellee

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Further, the court denies the motion to stay the judgment of the petition for
rehearing or rehearing en banc.
Entered at the direction of the panel: Judge Wilkinson, Judge Motz, and
Judge Richardsort.
For the Court
/s/ Patricia S. Connor, Clerk

•'

■ 1

la

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6229

JIMMY RICHARD HUSBAND,
Petitioner - Appellant,
v.
J. RAY ORMOND,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Richmond. John A. Gibney, Jr., District Judge. (3:18-cv-00271-JAG-RCY)

Submitted: July 23, 2020

Decided: July 28, 2020

Before WILKINSON, MOTZ, and RICHARDSON, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Jimmy Richard Husband, Appellant Pro Se.

Unpublished opinions ar' nofbindiihg pfec^d'^t in th*> circuit

2a

PER CURIAM:
Jimmy Richard Husband, a federal prisoner, appeals the district court’s order
denying relief on his 28 U.S.C. § 2241 (2018) petition in which he sought to challenge his
sentence by way of the savings clause in 28 U.S.C. § 2255 (2018). Pursuant to § 2255(e),
a prisoner may challenge his conviction in a traditional writ of habeas corpus pursuant to
§ 2241 if a § 2255 motion would be inadequate or ineffective to test the legality of his
detention.
[Section] 2255 is inadequate and ineffective to test the legality of a sentence
when: (1) at the time of sentencing, settled law of this circuit or the Supreme
Court established the legality of the sentence; (2) subsequent to the prisoner’s
direct appeal and first § 2255 motion, the aforementioned settled substantive
law changed and was deemed to apply retroactively on collateral review;
(3) the prisoner is unable to meet the gatekeeping provisions of § 2255(h)(2)
for second or successive motions; and (4) due to this retroactive change, the
sentence now presents an error sufficiently grave to be deemed a fundamental
defect.
United States v. Wheeler, 886 F.3d 415, 429 (4th Cir. 2018).
We have reviewed the record and find no reversible error. Accordingly, although
we grant leave to proceed in forma pauperis, we affirm for the reasons stated by the district
court. Husband, v. Ormond., No. 3:18-cv-00271-JAG-RCY (E.D. Va. Jan. 28, 2020). We
dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.

A

AFFIRMED

3a

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
JIMMY RICHARD HUSBAND
Petitioner,
v.

Civil Action No. 3:18CV271

MARK J. BOLSTER,
Respondent.
ORDER
In accordance with the accompanying Memorandum Opinion, it is hereby ORDERED
that the Motion to Dismiss (ECF No. 11) is GRANTED. The 28 U.S.C. § 2241 Petition (ECF
No. 1) is DISMISSED WITHOUT PREJUDICE for want of jurisdiction.
Should Husband desire to appeal, a written notice of appeal must be filed with the Clerk
of the Court within sixty (60) days of the date of entry hereof. Failure to file a notice of appeal
within that period may result in the loss of the ability to appeal.
The Clerk is DIRECTED to send a copy of the Memorandum Opinion and Order to
Husband and counsel of record.
It is so ORDERED.

L i

/s/ '/*l

Date:^"?
Richmond Virginia/

John A. Gibney, i i/j ) /
United States District Judge

4a

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
JIMMY RICHARD HUSBAND
Petitioner,
v.

Civil Action No. 3:18CV271

MARK J. BOLSTER,
Respondent.

MEMORANDUM OPINION
Jimmy Richard Husband, a federal inmate proceeding pro se, submitted a 28 U.S.C. § 2241
Petition. (“§ 2241 Petition,” ECF No. I.)1 The Government filed a Motion to Dismiss. (ECF
No. 11.) For the reasons set forth below, the Government’s Motion to Dismiss will be GRANTED
and the § 2241 Petition will be dismissed for want ofjurisdiction.
I. Procedural History and Summary of Husband’s Claim
“In April 2003, Jimmy Richard Husband ... pled guilty in the United States District Court
for the Eastern District of Virginia to eight counts of sexual exploitation of a minor in violation of
18 U.S.C. § 2251(a) and (d).” See United States v. Husband, 119 F. App’x 475, 477 (4th Cir.),
cert, granted, judgment vacated, 546 U.S. 802 (2005). Following a resentencing, the Court
i

The statute provides, in pertinent parh

(c) The writ of habeas corpus shall not extend to a prisoner unless-(1) He is in custody under or by color of the authority of the United States or is
committed for trial before some court thereof; or
(2) He is in custody for an act done or omitted in pursuance of an Act of
Congress, or anvorder, process, judgment or decree of a court or judge of the
United States; or
(3) He is in custody in violation of the Constitution or laws or treaties of the
United States ....
28 U.S.C. §2241 (c)(l)-(3).

5a

sentenced Husband to thirty years of imprisonment. United States v. Husband, 235 F. App’x 55,
56 (4th Cir. 2007). Thereafter, in 2008, the Court denied Husband’s 28 U.S.C. § 2255 Motion.
United States v. Husband, 325 F. App’x 170, 170 (4th Cir. 2009).
In his § 2241 Petition, Husband challenges his sentence.

(See § 2241 Pet. 3-4.)2

Specifically, Husband raises the following claims for relief:
Claim One:

“Pursuant to Nelson v. Colorado, 137 S. Ct. 1249 (2017), [Husband’s]
dismissed relevant conduct can no longer be utilized to enhance his
sentence.” (Id. at 3.)

Claim Two:

Nelson v. Colorado, 137 S. Ct. 1249 (2017), allows Husband “to use []
§ 2241 to challenge his illegal detention.” (IcL at 4.)

As discussed below, Husband fails to demonstrate that Nelson has any applicability to his sentence,
and thus, he lacks entitlement to relief on either claim.
II. Motions under 28 U.S.C. § 2255 Compared to Petitions under 28 U.S.C. § 2241
A motion pursuant to 28 U.S.C. § 2255 “provides the primary means of collateral attack”
on the imposition of a federal conviction and sentence, and such motion must be filed with the
sentencing court. See Pack v. Yusuff, 218 F.3d 448, 451 (5th Cir. 2000) (quoting Cox v. Warden,
Fed. Det. Ctr., 911 F.2d 1111, 1113 (5th Cir. 1990)). A federal inmate may not proceed under 28
U.S.C. § 2241 unless he or she demonstrates' that the remedy afforded by 28 U.S.C. § 2255 “is
inadequate or ineffective to test the ieg-ality of his detention^’ 28 U.S.C; § 2255(e).3 “For example,
attacks on the execution of a sentence are properly raised in a § 2241 petition.” In re Vial, 115

2 The Court employs the pagination assigned to Husband’s submissions by the CM/ECF
docketing system Sand dbrrects the punctuation, spacing, and capitaIizatidii'ih;rthc-..Squo'tatibn&.from
Husband’s submissions.-:,
:.;dr{lwrf
3 “This ‘inadequate and ineffective’ exception is known as the ‘savings clause’ to [the]
limitations imposed by § 2255.”
Wilson v. Wilson, No. I:llcv645 (TSE/TCB), 2012
WL 1245671, at *3 (E.D. Va. Apr. 12, 2012) (quoting In re Jones, 226 F.3d 328, 333 (4th Cir.
2000)).

6a

F.3d 1192,1194 n.5 (4th Cir. 1997) (citing Bradshaw v. Story, 86 F.3d 164, 166 (10th Cir. 1996);
Hanahan v. Luther, 693 F.2d 629, 632 n.l (7th Cir. 1982)). Nevertheless, the United States Court
of Appeals for the Fourth Circuit has emphasized that “the remedy afforded by § 2255 is not
rendered inadequate or ineffective merely because an individual has been unable to obtain relief
under that provision or because an individual is procedurally barred from filing a § 2255 motion.”
Id. (citations omitted).4
The Fourth Circuit has stressed that an inmate may proceed under § 2241 to challenge his
or her conviction “in only very limited circumstances.” United States v. Poole, 531 F.3d 263,269
(4th Cir. 2008) (citation omitted) (internal quotation marks omitted). The Fourth Circuit recently
expanded the longstanding “controlling test,” id., as follows:
[W]e conclude that § 2255 is inadequate and ineffective to test the legality of a
sentence when: (1) at the time of sentencing, settled law of this circuit or the
Supreme Court established the legality of the sentence; (2) subsequent to the
prisoner’s direct appeal and first § 2255 motion, the aforementioned settled
substantive law changed and was deemed to apply retroactively on collateral
review; (3) the prisoner is unable to meet the gatekeeping provisions of
§ 2255(h)(2) for second or successive motions; and (4) due to this retroactive
change, the sentence now presents an error sufficiently grave to be deemed a
fundamental defect.
United States v. Wheeler, 886 F.3d 415, 429 (4th Cir. 2018) (citations omitted), cert, denied, 139
S.Ct. 138 (2019).5

4 Husband cannot avoid the bar on'filing successive 28 U.S.C. § 2255 motions by
suggesting he is filing a petition for a writ of habeas corpus under 28 U.S.C. .§ 2241. “Call it a
motion for a new trial, arrest ofjudgment, mandamus, prohibition, coram nobis, coram vobis, audit
querela..., the name makes no difference. It is substance that controls.” Melton v. United States,
359 F.3d 855, 857 (7th Cir. 2004) felting Thurman v.Gramley, 97 F.3d 185, 186-87 (7th Cir.
1996))
5 Until Wheeler, a petitioner was required to satisfy the following test and was unable to
challenge his sentence:
[Section] 2255 is inadequate and ineffective to test the legality of a conviction
when: (1) at the time of conviction, settled law of this circuit or the Supreme Court

7a

« >

III. Analysis of Husband’s 28 U.S.C. § 2241 Petition
Here, Husband challenges the legality of his sentence. Husband fails to satisfy the second
or fourth prong of Wheeler. See Fortenberry v. Ormond, No. 3:18CV294, 2019 WL 1869854, at
*2 (E.D. Va. Apr. 25,2019) (rejecting identical claim). Specifically, Husband fails to demonstrate
that the “settled substantive law changed and was deemed to apply retroactively on collateral
review,” and that, “due to this retroactive change, the sentence now presents an error sufficiently
grave to be deemed a fundamental defect.” United States v. Wheeler, 886 F.3d 415, 429 (4th Cir.
2018.) Husband suggests that Nelson v. Colorado, 137 S. Ct. 1249 (2017), entitles him to relief
on his sentence. He is incorrect. In Nelson, the Supreme Court held that “[wjhen a criminal
conviction is invalidated by a reviewing court and no retrial will occur,... the State [is] obliged
to refund fees, court costs, and restitution exacted from the defendant upon, and as a consequence
of, the conviction.” 137 S. Ct. at 1252. Here, Husband fails to identify an invalidated conviction
and any fees, costs, or restitution imposed on him for the invalidated conviction. Rather, Husband
asserts that he
was originally indicted on 20 criminal counts. 12 of those counts were eventually
dismissed. The only counts Husband pled guilty to were counts 1 through 8.
Counts 1 through 8 only involve conduct that occurred between 1995 and 1996.
The dismissed counts 9 through 20 includes conduct that occurred all the way up
to January 11, 2002. However, when Husband was resentenced in 2006, the Court
used Husband’s relevant conduct from the dismissed counts' to enhance his
sentence. And to exacerbate the matter, the district court used the harsher 2001
version of the guideline enhancement. As demonstrated herein, such an
enhancement based on dismissed relevant conduct is now at odds with the U.S.

established the legality ;of^thev conviction; (2) subsequent to the prisoner’s direct ■
appeal and first § 2255,motion, the substantive law changed such that the conduct
of which the prisoner wrs convicted is deemed not to be criminal’, and (3) the
prisoner cannot satisfy the gatekeeping provisions of § 2255 because the new rule
is not one of constitutional law.
In re Jones, 226 F.3d 328, 333-34 (4th Cir. 2000) (emphasis added).

8a

Supreme Court’s decision in Nelson, and thus presents an error “sufficiently grave”
to be deemed a “fundamental defect.”
(Mem. Supp. § 2241 Pet. 15, ECF No. 4.) Contrary to Husband’s suggestion here, Nelson simply
has no bearing on a court’s ability to consider relevant conduct during sentencing. Walker v.
United States, No. 3:13-CR-OO187-01, No. 3:18-CV00332, 2019 WL 4386742, at *3 (S.D.W.
Va. Aug. 22, 2019) (“As is plain from Nelson, the Supreme Court’s decision does not touch on
sentencing considerations, sentencing guidelines, or relevant conduct in sentencing.”), report and
recommendation adopted, No. 3:13-00187, 2019 WL 4389037 (S.D.W. Va. Sept. 12, 2019);
Fortenberry, 2019 WL 1869854, at *2 (rejecting an identical claim). Thus, Nelson has no
application to Husband’s conviction or sentence.
Because Husband fails to demonstrate that the “settled substantive law changed and was
deemed to apply retroactively on collateral review,” and that, “due to this retroactive change, [his]
sentence now presents an error sufficiently grave to be deemed a fundamental defect,” Wheeler,
886 F.3d at 429, he may not proceed by § 2241.
IV. Conclusion
For the foregoing reasons, the Government’s Motion to Dismiss (ECF No. 11) will be
GRANTED. Husband’s § 2241 Petition (ECf No. 1) will be DISMISSED WITHOUT
PREJUDICE for want of jurisdiction.
An appropriate Order shall issue.

DatHiij'
Riciimond,

irgiriia

y/

2&W

John' A. Gibhey, Jr..:/,
United States District Jtiagi

